                                                         NATIONAL SCIENCE FOUNDATION
                                                          OFFICE OF INSPECTOR GENERAL
                                                            OFFICE OF INVESTIGATIONS

                                                   CLOSEOUT MEMORANDUM

 Case Number: 112070043                                                                     Page 1 of 1




         We reviewed a contract1 awarded to a company2 classified under the Small Business
         Administration's 8(a) program to determine whether the contractor was complying with the
         program's limit of subcontracting to no more than 50% of labor costs. We found that the contract
         is still ongoing3 and no determination can be made at this time. No further investigative action is
         necessary.

         This case is closed.




         2
         3
             Contract is due to expire on November 23, 2014




NSF OIG Form 2 (11102)
